No.

IN THE

Supreme (Einxrt nf tip?

plates

Chris Anthony George
Petitioner,

v.
Raymond Madden, Warden,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Mark R. Drozdowski, a Deputy Federal Public Defender in the Office
of the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and who is a member

of the Bar of this Court, hereby certifies that, pursuant to Supreme Court
Rule 29.3, on September 23, 2020, a copy of the enclosed Motion for Leave to
Proceed in Forma Pauperis, Petition for a Writ of Certiorari, Appendix to

1

Petition for Writ of Certiorari, and Certificate Pursuant to Rule 33 was

mailed postage prepaid and electronically mailed to:
Christopher Beesley
Deputy Attorney General
Office of the California Attorney General
600 West Broadway, Suite 1800
San Diego, CA 92101
DocketingLAAWT@doj .ca. gov
Christopher.Beesley@doj.ca.gov

Counsel for Respondent

All parties required to be served have been served. I declare under
penalty of perjury under the laws of the United States of America that the

foregoing is true and correct.
Executed on September 23, 2020 at Los Angeles, California.

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

